        OFFICE OF INSPECTOR GENERAL

                                  Catalyst for Improving the Environment



Evaluation Report




        EPA’s Final Water Security Research
        and Technical Support Action Plan
        May Be Strengthened Through
        Access to Vulnerability Assessments

        Report No. 2004-P-00023


        July 1, 2004
Report Contributors:                    Erin Barnes-Weaver
                                        Fred Light
                                        Ricardo Martinez
                                        Erin Mastrangelo




Abbreviations

EPA          Environmental Protection Agency
ORD          Office of Research and Development
OW           Office of Water
                            UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C. 20460


                                                                                                     OFFICE OF
                                                                                                INSPECTOR GENERAL




                                                 July 1, 2004

MEMORANDUM

SUBJECT:                  Evaluation Report:
                          EPA’s Final Water Security Research and Technical Support Action Plan
                          May be Strengthened Through Access to Vulnerability Assessments
                          Report No. 2004-P00023

FROM:                     Jeffrey K. Harris /s/
                          Director for Program Evaluation, Cross-Media Issues

TO:                       Paul Gilman
                          Assistant Administrator for Research and Development

                          Benjamin Grumbles
                          Acting Assistant Administrator for Water


Attached is a copy of the subject final report. During our ongoing evaluation of the
Environmental Protection Agency’s (EPA’s) activities to enhance the security of the Nation’s
water supply, we noted an issue that requires your immediate attention. Specifically, we believe
EPA’s Office of Research and Development (ORD) should promptly request and be granted
access to the utility vulnerability assessments being prepared pursuant to the Public Health
Security and Bioterrorism Preparedness and Response Act of 2002 (Bioterrorism Act). These
vulnerability assessments may better enable ORD to assure that EPA’s Water Security Research
and Technical Support Action Plan (Research Action Plan) appropriately considers needs
identified by water utilities.

We propose this action because, during our preliminary research,1 we learned that the draft
Research Action Plan may be finalized without ORD’s considering potentially useful data in the
vulnerability assessment on water security needs. EPA has already initiated several research
projects, and half of the 3-year life of the National Homeland Security Research Center
responsible for executing the Plan has already expired (although extending the center’s life is
being considered). We are reporting this issue at this time because of the time-critical nature.


        1
           The EPA Office of Inspector General conducted preliminary research evaluating water system security
activities in support of the Agency’s Strategic Plan for Homeland Security.

                                                        1
We based our observations and recommendations on information obtained from our interviews
with water security experts, water utility officials, Research Action Plan stakeholders, and
headquarters and regional EPA representatives; attendance at stakeholder and peer review
meetings; and a review of vulnerability assessment tools, methodologies, and related documents.
We are performing our evaluation in accordance with the Government Auditing Standards,
issued by the Comptroller General of the United States. We began our review on June 16, 2003,
and our review is continuing.

EPA’s response to our draft report sufficiently addressed the report recommendations; therefore,
no additional response is necessary.

Background

In 1998, Presidential Decision Directive 63 addressed the need to protect the Nation’s critical
infrastructures against criminal and terrorist attacks, and designated EPA the lead Federal agency
for water infrastructure. In December 2003, Homeland Security Presidential Directive 7
confirmed EPA’s role as the lead agency for drinking water and water treatment systems. Water
protection concerns greatly increased following the terrorist attacks on September 11, 2001, and
subsequent reports of potential terrorist activities that could threaten the water infrastructure.
EPA’s September 2002 Strategic Plan for Homeland Security stated, “EPA will advance the
state of knowledge in the areas relevant to homeland security to provide responders and decision
makers with tools and the scientific understanding they need to manage existing or potential
threats to homeland security.”

EPA’s Office of Water (OW) formed a Water Protection Task Force2 shortly after the
September 11, 2001, terrorist attacks, and ORD formed the National Homeland Security
Research Center in September 2002. The OW task force and ORD research center jointly
developed the Research Action Plan. To develop the Plan, they held a series of meetings with
Federal partners and other select stakeholders, and submitted the Plan to a review panel at the
National Academies of Science on April 22, 2003. EPA’s Research Action Plan sought to
identify and prioritize critical drinking water and wastewater security research needs, to provide
a road map to enhance the protection of the Nation’s water systems from potential threats or
deliberate attacks. EPA estimates that it will require $43.6 million to fund needed research
projects.

Concurrent to development of the draft Research Action Plan, OW awarded $51 million in grants
to help large utilities prepare vulnerability assessments required under the Bioterrorism Act.
Vulnerability assessments are potentially useful sources of research and development needs
because they require utilities to assess “the vulnerability of its system to a terrorist attack or
other intentional acts intended to substantially disrupt the ability of the system to provide a safe
and reliable supply of drinking water. The vulnerability assessment shall include, but not be
limited to, a review of pipes and constructed conveyances, physical barriers, water collection,
pretreatment, treatment, storage and distribution facilities, electronic, computer or other



       2
        In 2003, EPA’s Water Protection Task Force became the Agency’s Water Security Division.

                                                     2
automated systems which are utilized by the public water system, the use, storage, or handling of
various chemicals, and the operation and maintenance of such system.” 3

ORD Should Access Utility Vulnerability Assessments
to Validate its Research Need Priorities

Despite the breadth, expense, and proximity of the vulnerability assessments conducted by water
utilities, ORD had not requested access to these assessments as of May 21, 2004, even though
the assessments could provide ORD with valuable information for updating the Research Action
Plan. Copies of the assessments are stored by OW’s Water Security Division, and ORD would
need to request access to those secured documents in order to review them. However, ORD had
not requested such access from OW. We believe ORD’s reviewing those vulnerability
assessments may provide it with additional information on needs identified by water utilities.
That information could then be used to make the Research Action Plan for addressing potential
terrorist attacks more protective of public health and the environment.

The direct utilization of the vulnerability assessments to identify water security research needs
has been advocated by internal and external stakeholders. EPA’s Director for Ground Water and
Drinking Water cited vulnerability assessments as a source of research and development topics
as early as February 2003. Access was also advocated in an October 2003 General Accounting
Office Report,4 which noted that 90 percent of a group of nationally recognized water security
experts agreed or somewhat agreed that research allocation decisions should be based on
vulnerability assessment information. Further, in 2004, a member of the National Academy of
Science’s Research Action Plan review panel stated:

        The vulnerability assessments provide information that could provide guidance.
        It will provide EPA an opportunity to address vulnerabilities instead of guessing
        what they are. It will provide assurance that all that needs to be considered have
        been considered or we risk leaving our self at risk. Access to the vulnerability
        assessments would strengthen whatever plan is developed.

It should be noted that, in May 2003, EPA awarded a contract for a review of vulnerability
assessments, but this review did not include concerns related to EPA’s Research Action Plan. In
December 2003, EPA amended the contract and included tasks for the contractor to address the
concerns of others. As a result, ORD submitted a list of questions relating to EPA’s Research
Action Plan. However, the contractor responded that many of ORD’s questions could not be
answered or could only be partially answered based on the data available in the assessments and
the level of contractor effort required. An EPA official said another contract amendment would
be necessary to complete ORD’s review. This problem may have occurred, in part, because
ORD’s inability to review at least a sample of the vulnerability assessments prevented ORD



        3
         Public Law 107-188 - June 12, 2002; Title IV Section 1433 (a)(1).
        4
          GAO-04-29, “Expert’s Views on How Future Federal Funding Can Best Be Spent to Improve Security,”
October 2003.

                                                       3
officials from knowing what type of information was contained in the assessment and, thus, the
appropriate questions to ask.

Recommendations

To better ensure that the final Research Action Plan appropriately incorporates the breadth of the
Nation’s water security needs, we recommend that:

   1.   ORD immediately request, and OW immediately grant to ORD officials responsible for
        developing, prioritizing, and implementing critical water security research projects,
        access to vulnerability assessments provided by utilities. Once granted access,
        appropriate ORD officials should review the vulnerability assessments to determine the
        extent to which EPA’s Research Action Plan addresses utilities’ most significant
        vulnerabilities.

   2.   If ORD wishes to use a contractor for the vulnerability assessment review relating to
        EPA’s Research Action Plan, ORD should immediately request access to a sample of
        vulnerability assessments to enable it to more effectively formulate questions for
        contractor review, and OW should expedite a contract amendment to have the contractor
        address ORD’s additional questions.

Agency Response and Office of Inspector General Evaluation

In its response to our draft report, EPA agreed with the intent of our recommendations. EPA’s
response included a corrective action plan, with milestone dates, which adequately addressed the
problems identified. We commend EPA for its continued efforts and quick action. The full
Agency response is provided in Appendix A.

If you or your staff have any questions, please call me at (202) 566-0831 or Ricardo Martinez at
(212) 637-3045.




                                                4
                                                                                    Appendix A
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460




                                          June 25, 2004

MEMORANDUM


SUBJECT:                 Response to Office of Inspector General Draft Evaluation Report:
                         EPA's Final Water Security Research and Technical Support Action
                         Plan
                         May be Strengthened Through Access to Vulnerability Assessments
                         Assignment No. 2003-001288

FROM:                    Paul Gilman /s/ Paul Gilman
                         Assistant Administrator for Research and Development

                         Benjamin Grumbles /s/ Benjamin Grumbles
                         Acting Assistant Administrator for Water

TO:                      Jeffrey Harris
                         Director for Program Evaluation, Cross-Media Issues


       Thank you for the opportunity to respond to the subject draft report. The draft report
makes the following recommendations:

       1.                ORD immediately request, and OW immediately grant to ORD officials
                         responsible for developing, prioritizing, and implementing critical water
                         security research projects, access to vulnerability assessments provided
                         by utilities. Once granted access, appropriate ORD officials should
                         review the vulnerability assessments to determine the extent to which
                         EPA’s Research Action Plan addresses utilities’ most significant
                         vulnerabilities.

       2.                If ORD wishes to use a contractor for the vulnerability assessment
                         review relating to EPA’s Research Action Plan, ORD should
                         immediately request access to a sample of vulnerability assessments to
                         enable it to more effectively formulate questions for contractor review,



                                                5
                         and OW should expedite a contract amendment to have the contractor
                         address ORD’s additional questions.

        We understand that the intent of your recommendations is to assure that EPA’s Research
and Technical Support Action Plan (Action Plan) appropriately considers the security needs
identified by water utilities.

          EPA’s Office of Research and Development (ORD) has always had interest in accessing
the vulnerability assessments (VAs) for research and technical support needs to inform the
Action Plan; and EPA’s Office of Water (OW) has been supportive of this interest. When access
was not immediately available, ORD and OW convened a meeting of water security stakeholders
to identify the most important issues associated with protecting water infrastructure. Information
was also received through a review of the Action Plan by the National Academies. Further,
National Homeland Security Research Center staff served on an advisory committee for a project
sponsored by the American Water Works Research Foundation. This project was designed to
better understand water infrastructure vulnerabilities. It involved group discussions between
consulting engineers who prepared the VAs and water utilities on the most important findings
from their efforts. Through this series of activities, ORD concluded this was the most efficient
way to gather information on water utility vulnerabilities.

       While we are confident that the process our offices have used to develop the Action Plan
has been conducive to accurately identifying the utilities’ highest priority security needs, we
agree with the intent of the recommendations. Our offices will take the necessary steps to
implement the above two recommendations and review a sample of the vulnerability
assessments.

       As you pointed out in your memorandum and in preparation for ORD’s review of the
vulnerability assessments, OW is evaluating the questions ORD posed regarding the potential
research needs contained in the vulnerability assessments. ORD has identified individuals with
the necessary security clearances for which access to vulnerability assessments has been
requested. OW is prepared to immediately grant access to the vulnerability assessments to these
individuals to expedite the ORD review process. In order to facilitate implementation of the
second recommendation, OW has already extended its original contract to allow for the
continuation of work in the event that the initial review of a sampling of vulnerability
assessments by ORD officials determines that additional contractor review is feasible and
advisable.

        While we are confident that the process our offices have used to develop the Action Plan
has been conducive to accurately identifying the utilities’ highest priority security needs, we
agree with the intent of the recommendations. Our offices will take the necessary steps to
implement the above two recommendations. ORD will work with OW to review a sample of the
VAs to determine their value in providing this information. ORD is not in a position to devote
scarce resources on a lengthy review of limited value; therefore, a more extensive review of the
VAs will be decided after this sampling is completed and evaluated.

                                                6
        Please be assured that we are fully committed to meeting the Nation’s water security
needs in the most effective and efficient way possible. ORD and OW are already implementing
the recommendations; thus, we are attaching our corrective action plan. We respectfully request
that the OIG close this audit upon issuance of the final report.

        Thank you again for the opportunity to comment on the subject draft report. Should your
staff have any questions, or require additional information, please contact Jonathan Herrmann on
(513) 569-7839 or Terry Simpson on (202) 564-0968.

Attachment

cc: Henry L. Longest II, ORD
    William Farland, ORD
    Lek Kadeli, ORD
    Jim Morant, ORD
    Alice Sabatini, ORD
    Tim Oppelt, ORD
    Andy Avel, ORD
    Jonathan Herrman, ORD
    Terry Simpson, ORD
    Michael Shapiro, OW
    Cynthia Dougherty, OW
    Nanci Gelb, OW
    Janet Pawlukiewicz, OW
    Debbie Newberry, OW
    Cynthia Simbanin, OW
    Mike Mason, OW




                                                 7
                                                                                                                                                  June 4, 2004

                                        Corrective Action Plan to Assignment No. 2003-001288 OIG Review
                                                 Draft Evaluation Report Provided: May 21, 2004



Rec                   Report                               Action                                Corrective                                     Due
 #                Recommendation                           Official                                Action                                       Date
1     ORD immediately request, and OW                 Water Security      On May 27, 2004, ORD’s National Homeland Security               June 18, 2004
      immediately grant to ORD officials              Team Leader,        Research Center (NHSRC) verbally requested access to the
      responsible for developing, prioritizing, and   National Homeland   vulnerability assessments. This request was made to OW’s
      implementing critical water security            Security Research   Water Security Division (WSD) and WSD’s response was
      research projects, access to vulnerability      Center, ORD         positive. NHSRC and WSD staff will work together to
      assessments provided by utilities. Once                             finalize access and any requirements associated with that
      granted access, appropriate ORD officials                           access. NHSRC plans to have four individuals review a
      should review the vulnerability assessments                         total of 20 large utility vulnerability assessments and will
      to determine the extent to which EPA’s                              work with WSD to identify the vulnerability assessments to
      Research Action Plan addresses utilities                            be reviewed.
      most significant vulnerabilities.

2     If ORD wishes to use a contractor for the       Water Security      NHSRC will develop a set of questions that will be used by      August 31, 2004
      vulnerability assessment review relating to     Team Leader,        each reviewer in conducting the vulnerability assessment
      EPA’s Research Action Plan, ORD should          National Homeland   reviews. These questions will focus on determining if
      immediately request access to a sample of       Security Research   research needs, in addition to those identified in the Water
      vulnerability assessments to enable it to       Center, ORD         Security Research and Technical Support Action Plan, are
      more effectively formulate questions for                            identified in the vulnerability assessments. This set of
      contractor review, and OW should expedite                           questions will be informed by the preliminary review of the
      a contract amendment to have the                                    vulnerability assessments by WSD’s contractor. Final
      contractor address ORD’s additional                                 analysis and a decision to move to a fuller review will be
      questions.                                                          made in the August time frame. OW has already extended it
                                                                          original contract to allow for the continuation of reviews if
                                                                          such is deemed necessary.




                                                                            8
                                                                               Appendix B


                                    Distribution

Assistant Administrator, Office of Research and Development (8101R)
Acting Assistant Administrator, Office of Water (4101M)
Comptroller (2731A)
Agency Followup Official (the CFO) (2710A)
Agency Audit Followup Coordinator (2724A)
Audit Followup Coordinator, Office of Research and Development (8104R)
Audit Followup Coordinator, Office of Water (4101M)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator for Public Affairs (1101A)
Inspector General (2410)




                                             9
